               March 15, 1999

               WILLIAM J. DOWLING
               VICE PRESIDENT, ENGINEERING

               Subject: Tray Management System Deliverables
                        (Report Number DA-MA-99-001)

               During an ongoing audit of the Tray Management System (Project
               Number 99PA007DA000), USPS officials expressed concern that a
               contractor had not satisfied several contractual requirements. These
               requirements included the re-supply requirements for spare parts and
               the satisfactory completion of both a parts provisioning document
               and a life cycle support plan. This Management Advisory Report
               details the results of our review of the requirements in question.

               To assess these concerns, we interviewed USPS and Tray
               Management System contractor officials and reviewed USPS
               purchase orders and receipt dates. The contractor currently operates
               two Tray Management System sites at the Charlotte, North Carolina,
               and Seattle, Washington, Processing and Distribution Centers.

               The Tray Management System automates the movement and staging
               of mail between most mail sorting operations in a processing plant.
               System components include conveying equipment, staging devices
               and interfaces to operations and controls for moving trays of mail
               within the Processing and Distribution Centers.

Observations   The Tray Management System contractor has not satisfied several
               contractual requirements. Specifically:

               •   The delivery of both emergency and non-emergency spare parts
                   from August 1, 1998 through December 23, 1998 was
                   delinquent; and

               •   USPS did not receive an acceptable parts provisioning document
                   nor life cycle support plan.
Tray Management System Deliverables                                                       DA-MA 99-001



Spare Parts                     USPS data disclosed that the contractor did not meet the re-supply
                                requirements for emergency and non-emergency spare parts from
                                August 1, 1998 through December 23, 1998. The Charlotte and
                                Seattle statements of work require the contractor to fill emergency
                                part orders within 24 hours. 1 These statements of work do not
                                address the time requirements for non-emergency part orders.
                                However, based on the Phase III statement of work and discussions
                                with USPS and contractor officials, we believe a reasonable re-
                                supply time on non-emergency parts is three days.2

                                During the period August 1, 1998 through December 23, 1998, the
                                Charlotte Processing and Distribution Center placed 122 emergency
                                and 314 non-emergency line item part orders. During the same
                                period, the Seattle Processing and Distribution Center placed 72
                                emergency and 799 non-emergency line item part orders. According
                                to USPS records:

                                •    Over 70 percent of the Charlotte emergency part orders were
                                     delinquent. Over 65 percent of these orders were delinquent by
                                     more than 4 days.

                                •    Over 50 percent of the Charlotte non-emergency part orders were
                                     delinquent. Over 50 percent of these orders were delinquent by
                                     10 days or more.

                                •    Over 80 percent of the Seattle emergency part orders were
                                     delinquent. Over 60 percent of these orders were delinquent by
                                     more than 4 days.

                                •    Over 65 percent of the Seattle non-emergency part orders were
                                     delinquent. Over 40 percent of these orders were delinquent by
                                     10 days or more.

                                In addition, 15 Charlotte part orders and seven Seattle part orders
                                placed prior to November 1, 1998 remained unfilled as of December
                                23, 1998.

                                The contractor believed the delay in supplying spare parts was due to
                                a combination of issues, including: (1) the two Processing and
                                Distribution Centers ordering a greater volume of parts than was

1
  The Charlotte, North Carolina, Processing and Distribution Center Tray Management System is one of three
prototype systems funded under the Phase II Decision Analysis Report. The Seattle, Washington, Processing and
Distribution Center Tray Management System is covered under its own Statement of Work.
2
  Phase III of the project is to construct Tray Management Systems in an additional 23 Processing and Distribution
Centers.


                                                                                                                     2
Tray Management System Deliverables                                                DA-MA 99-001


                             originally planned, and (2) requiring parts the contractor did not
                             believe would ever require replacement. The contractor contended
                             that some part failure was due to inadequate preventive maintenance
                             by USPS.

                             USPS officials stated that delinquent spare parts delivery had not
                             resulted in significant system downtime. USPS management also
                             stated delays in receiving replacement parts had disrupted its
                             operations. For example, officials indicated that one USPS site
                             “cannibalized” underutilized storage towers as a source for parts
                             when contractor orders were delayed. Although officials were
                             unable to quantify the hours involved in this process, we believe this
                             process was an unnecessary increase in Tray Management System
                             maintenance. Also, in some cases the sites had to order spare parts
                             from local vendors.

                             Both USPS and contractor officials are aware of the replacement
                             parts situation, but no agreement has been reached on how to resolve
                             the problem.

Other Deliverables           The statements of work also required the contractor to provide a
                             parts provisioning document and a life cycle support plan. These
                             documents were due at the acceptance of each Tray Management
                             System.3 To date, neither document has been delivered.

                             The parts provisioning document is a report of items in mail
                             processing equipment down to subassemblies and individual parts.
                             Parts are identified in the parts provisioning document through the
                             use of the original equipment manufacturer number. This allows
                             USPS to procure parts by manufacturer and specific part number.
                             We found that due to a lack of standardized documentation, at times
                             the Charlotte and Seattle centers had to fax photocopies or detailed
                             descriptions of the needed part to the contractor.

                             Without the parts provisioning document, the contractor and USPS
                             have not been able to hold a parts provisioning conference. This
                             conference is used to develop the range and depth of spare parts for
                             the Tray Management System sites.

                             At the January 1999 technical review meeting, the contractor
                             indicated they would provide a parts provisioning document and a
                             life cycle support plan to the USPS by the end of February 1999.
                             USPS officials stated the completion of these deliverables was

3
 The Charlotte Tray Management System was accepted in July, 1998. The Seattle Tray Management System was
accepted in April, 1998.


                                                                                                           3
Tray Management System Deliverables                                             DA-MA 99-001


                            critical to ensure that sites will not be left without spare parts
                            support.

                            The contractor has been awarded four additional Tray Management
                            System sites. We are concerned that additional sites have been
                            awarded when there are unresolved problems with the current
                            operating sites. We are also concerned that as the additional Tray
                            Management System sites become operational, the demand for parts
                            and other deliverables will increase.

Suggestions                 The Vice President, Engineering, should:

                            1) Direct Tray Management System Program personnel, working
                               with the contractor, to review the circumstances surrounding the
                               part failures and delays in re-supply and take necessary
                               corrective action.

                            2) Instruct USPS contracting officials to enforce the satisfactory re-
                               supply of spare parts and the completion of a parts provisioning
                               document and a life cycle support plan.

Management                  The full text of management comments is in Appendix A.
Comments                    Management agreed the contractor’s performance was not up to the
                            standards set forth in the statements of work. The contractor also
                            admitted to this deficiency, and has pledged to come into
                            compliance.

                            Management is proposing the following actions to address the
                            delinquency of deliverables:

                            •   Require the contractor to report parts replenishment performance
                                at all future technical review meetings.

                            •   Move the spare parts replenishment function in-house, under the
                                responsibility of the Topeka Material Distribution Center.

                            •   Require the contractor to update the USPS monthly on the
                                completion of the parts provisioning document and the life cycle
                                support plan.

                            •   Continue to monitor the contractor’s performance and enforce
                                satisfactory compliance as needed.




                                                                                                     4
Tray Management System Deliverables                                         DA-MA 99-001



Evaluation of               We believe management’s comments are responsive to the issues
Management                  raised in the report. The proposed corrective actions should correct
                            the delinquency of the Phase II deliverables. We wish to emphasize
Comments
                            that we believe continued monitoring of contractor performance is
                            imperative to ensure that all current and future deliverables are
                            timely.

                            We appreciate the cooperation and courtesies provided by your staff.
                            If you have any questions please contact Tracy A. LaPoint, Director,
                            Developmental at (703) 248-2167 or myself at (703) 248-2300.




                               //Signed//
                            Colleen McAntee
                            Assistant Inspector General
                             for Performance

                            cc: Alan Kiel
                                John Gunnels




                                                                                                   5
Tray Management System Deliverables   DA-MA 99-001


                                      APPENDIX A




                                                     6
Tray Management System Deliverables   DA-MA 99-001


                                      APPENDIX A




                                                     7
